WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United States

OFFICE OF THE CLERK

No. 20-7555
Patricia Miller, et al.
(Respondent)

v.

Anthony A. Patel
(Petitioner)

APR 12 2021

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
au

I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Wasser, Cooperman & Mandles, PC

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
Jerk's Office, 1 First Street, NE, Washington, D.C. 20543).
to: Suprem
Signature
Date: April 12, 2021
(Type or print) Name Jon R. Schwalbach
O Ms.
IRIMr.

0 Mrs.

0 Miss

Firm Kjar, McKenna & Stockalper
Address 841 Apollo St. Suite 100
City & State El Segundo, CA
Phone

424-217-3081

Zip 90245
Email jschwalbachPkraslegal.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
Anthony A. Patel
cc: 553 N. Pacific Coast Hwy.
RECEIVED
Redondo Beach, CA 90277
APR 2 0 2021
(424) 350-0123 Fax: (310) 943-3829
E-mail: tony@tonypatel.com
^E OF THE CLERK
COURT U.S.
PLAINTIFF IN PRO PER

